APPENDIX

1a

APPENDIX A

IN THE SUPREME COURT OF THE
STATE OF NEW MEXICO
April 09, 2019
NO. S-1-SC-37579
REX E. STUCKEY,
Petitioner-Respondent,
v.
TAMRA L. LAMPRELL,
Respondent-Petitioner.
ORDER
WHEREAS, this matter came on for consideration
by the Court upon petition for writ of certiorari filed
under Rule 12-502 NMRA, and the Court having
considered said pleadings and being sufficiently
advised, Chief Justice Judith K. Nakamura, Justice
Barbara J. Vigil, Justice C. Shannon Bacon, and
Justice David K. Thomson concurring, Justice Michael
E. Vigil recusing;
NOW, THEREFORE, IT IS ORDERED that the
petition for writ of certiorari is DENIED; and
IT IS FURTHER ORDERED that the Court of
Appeals may proceed in Stuckey v. Lamprell, Ct. App.
No. A-1-CA-35538 in accordance with the Rules of
Appellate Procedure.
IT IS SO ORDERED.

2a
WITNESS, the Honorable Judith
K. Nakamura, Chief Justice of the
Supreme Court of the State of New
Mexico, and the seal of said Court
this 9th day of April, 2019.
Joey D. Moya, Clerk of Court
Supreme Court of New Mexico
By /s/ Madeline Garcia
Chief Deputy Clerk
I CERTIFY AND ATTEST:
A true copy was served on all parties or their counsel
of record on date filed.
Madeline Garcia
Clerk of the Supreme Court
of the State of New Mexico

3a

APPENDIX B

IN THE COURT OF APPEALS
OF THE STATE OF NEW MEXICO
REX E. STUCKEY,
Petitioner-Appellee
v.

NO. A-1-CA-35538

TAMRA L. LAMPRELL,
Respondent-Appellant.
APPEAL FROM THE DISTRICT COURT OF
RIO ARRIBA COUNTY
Matthew. J. Wilson, District Judge
Boyle Law Office
Gary W. Boyle
Santa Fe, NM
for Appellee
Atkinson & Kelsey, PA
Thomas C. Montoya
Albuquerque, NM
for Appellant

4a
MEMORANDUM OPINION
VIGIL, Judge.
{1} Mother makes three arguments on appeal: (1)
the procedure by which the district court adopted the
September 27, 2013 interim order changing sole legal
custody of Child from Mother to Father (the Interim
Order) violated her right to due process, rendering the
Interim Order void; (2) assuming the Interim Order is
void, such a determination requires that sole legal
custody of Child be returned to Mother and that all
subsequent orders of the district court on the issue of
custody be deemed void; and (3) the district court erred
in denying her postjudgment motion for a bonding
study. We affirm. Because this is a memorandum
opinion and the parties are familiar with the facts and
procedural posture of the case, we set forth only such
facts and law as are necessary to decide the merits.
BACKGROUND
{2} In July 2010, Father filed a petition to establish
paternity, determine custody and time-sharing, and to
assess child support with regard to Child. The district
court, on its own motion, ordered that the case be
referred to Family Court Services for mediation, early
neutral evaluation, priority consultation or advisory
consultation as deemed appropriate by Family Court
Services.
Priority consultation recommendations
concerning custody and time-sharing were filed on
October 11, 2012, recommending, in pertinent part,
that Father be given unsupervised visitation. Mother
filed objections to these recommendations.
{3} After an evidentiary hearing, the district court
entered a final order on December 14, 2012, in which
the court adopted the priority consultation

5a
recommendations and awarded Father unsupervised
visitation.
Updated
priority
consultation
recommendations were filed on April 9, 2013,
recommending, in pertinent part, that Father
continue to have unsupervised visitation with Child
and that advisory consultation should be conducted
through Family Court Services to further address
custody, time-sharing, and other parenting issues.
The district court filed its order adopting these
recommendations on May 20, 2013.
{4} In an order filed on September 6, 2013, the
district court granted Father’s motion to hold Mother
in contempt for refusing to turn Child over to him for
scheduled unsupervised visitation, and the district
court also set a hearing for September 20, 2013 to
“discuss the progress of the Advisory Consultation
Recommendations and any request by the Consultant
for additional information[,]” which was continued to
September 27, 2013.
{5} At the September 27, 2013 hearing, the district
court announced that Family Court Services had
completed the advisory consultation report and
because of the nature of the report and the concerns
raised therein regarding Mother, the court was
adopting Family Court Service’s recommendations
immediately. The district court explained to the
parties in open court that “if such a drastic step is not
made, then the child can be harmed.”
The
September 27, 2013 written order adopting the
advisory consultant’s recommendations, the Interim
Order, states that the advisory consultation report

6a
raises significant concerns regarding Mother’s
ability to parent, and [Child’s] safety while with
Mother including:
a.
The results of Mother’s psychological
testing and diagnosis.
b.
Concerns regarding [Child’s] safety
while with Mother.
c.
That Mother ‘is so highly consumed
with this case that it interferes with her ability
to spend time with [Child] to provide enriching
activities. The investment of time and energy
that Mother is making to analyze and
interpret this case appears unhealthy and
confirms the psychologist’s assessment that
her ‘analytic skills can be detrimental when
they are paired with suspiciousness,
defensiveness, and self-protection.’
The district court therefore ordered, in pertinent part,
that custody of Child be immediately transferred to
Father on an interim basis. The parties were given
copies of the advisory consultation report at the
September 27, 2013 hearing and were informed that a
hearing on any objections to the advisory consultation
recommendations would be held on December 10,
2013.
{6} Mother filed objections to the Interim Order and
a Rule 1-060(B) NMRA motion for reconsideration on
October 9,2013. However, there was significant delay
in the hearing on Mother’s objections to the Interim
Order. This delay was the result of the following
events: (1) the district court’s order granting Mother’s
December 6, 2013 motion to postpone the hearing
until at least late January 2014 based on the

7a
anticipated withdrawal of her attorney; (2) Mother’s
motion seeking the judge’s recusal for a conflict of
interest, which was granted and left the case without
a judge until February 5, 2014; (3) litigation of
Mother’s Rule l-060(B) motion for relief from the
Interim Order, which was denied on June 30, 2014;
motions practice following Family Court Services’
July 2, 2014 filing of updated priority consultation
recommendations, recommending that the Interim
Order remain in place; (5) Mother’s litigation with the
Office of the Attorney General seeking to obtain from
Family Court Services the records relied upon in
forming the advisory and priority consultation
recommendations, which resulted in the district
court’s September 2, 2014 order compelling production
of the requested records to Mother; and (6) delay
caused by the parties’ joint motion to vacate the
scheduled September 11, 2014 hearing on Mother’s
objections to the Interim Order, which the district
court granted and reset for October 28 and 29, 2014.
{7} On February 13, 2015, after a three-day
evidentiary hearing on October 28 and 29, 2014 and
February 2, 2015, the district court entered a final
order (Final Order) resolving Mother’s objections to
the Interim Order and certain other motions filed by
Mother seeking to expand her visitation with Child.
Over the course of this three-day hearing, Mother
called witnesses on her behalf, cross-examined
witnesses against her, and argued the merits of her
objections to the Interim Order and advisory
consultation recommendations.
{8} Applying NMSA 1978, Section 40-4-9 (1977), the
district court concluded that it was in the best interest
of Child that Father maintain sole legal custody, that

8a
Mother have periods of unsupervised visitation, and
that to the extent that Mother’s objections to the
Interim Order or advisory and priority consultation
recommendations conflicted with the court’s findings
and conclusions, such objections were overruled. In
pertinent part, the district court found that: “Father
is capable of supporting a relationship between [C]hild
and Mother. Mother’s ability to support a relationship
between the child and Father is questionable at best.”
[C]hild should not be subject to another major change
in custody at this time.” “[C]hild is currently doing
well.”
{9} Over eight months after entry of the Final
Order, on October 22, 2015, Mother filed a motion for
a bonding study to determine the best interest of Child
with regard to custody and visitation. On March 7,
2016, the district court denied the motion. The district
court found that Mother’s motion was an untimely
discovery motion and that “[p]rior to the trial on the
merits, the parties had an extensive period in which to
conduct discovery. [Mother] had an opportunity to
participate in discovery and the Court issued orders at
[Mother’s] request requiring additional disclosure of
information from Family Court Services and Las
Cumbres Community Services.”
{10} Mother appeals.
DISCUSSION
I.

Due Process in Entry of the Interim
Order

{11} Mother argues that the Interim Order was
entered in violation of procedural due process and is
therefore void. Mother asserts that the due process
violation stems from the district court’s failure, prior

9a
to adopting Family Court Services’ advisory
consultation recommendations, to give her prior notice
that a change in custody matter would be heard and
opportunity to object to the advisory consultation
recommendations and to examine witnesses. Mother
further contends that the advisory consultation
recommendations “were based on a report which was
not received in evidence, which report was based on a
non-expert’s reliance on hearsay” and was adopted as
a result of ex parte communications between the
district court and Family Court Services.
{12} Father responds that “Mother received
appropriate due process[.]” Father asserts that “a
post-deprivation hearing [held] within a reasonable
period does not violate [a] parent’s minimum federal
due process rights” and that a district court is
empowered to take whatever interim actions are
needed to protect the best interest of a child even prior
to being given an opportunity to be heard. Further,
“[b]ecause the [Interim Order] was an interim order
only and because the [post-deprivation] hearing
afforded to Mother was reasonably scheduled,” Father
contends, Mother’s due process rights were not
violated. We agree.
{13} “The Fourteenth Amendment to the U.S.
Constitution guarantees citizens . . . procedural due
process in state proceedings.” Bd. of Educ. of Carlsbad
Mun. Schs. v. Harrell, 1994-NMSC-096, ¶ 21, 118
N.M. 470, 882 P.2d 511. Our review is de novo. See
State ex rel. Children, Youth & Families Dep’t v.
Christopher L., 2003-NMCA-068, ¶ 14, 133 N.M. 653,
68 P.3d 199 (“In passing upon claims that the
procedure utilized below resulted in a denial of
procedural due process, we review such issues de

10a
novo.” (alteration, internal quotation marks, and
citation omitted)).
{14} Procedural due process requires “notice,
reasonably calculated, under all the circumstances, to
apprise interested parties of the pendency of the action
and afford them an opportunity to present their
objections.” State of N.M. ex rel. Children, Youth &
Families Dep’t v. William M., 2007-NMCA-055, ¶ 37,
141 N.M. 765, 161 P.3d 262; see In re Laurie R.,
1988-NMCA-055, ¶ 22, 107 N.M. 529, 760 P.2d 1295
(“Procedural due process requires notice to each of the
parties of the issues to be determined and opportunity
to prepare and present a case on the material issues.”)
However, “due process requires flexibility and . . . in
extraordinary situations, the requirement of notice
and opportunity to be heard can be postponed until
after the deprivation of a constitutionally protected
interest.” Yount v. Millington, 1993-NMCA-143, ¶ 25,
117 N.M. 95, 869 P.2d 283; see In re Ronald A.,
1990-NMSC-071, ¶ 3, 110 N.M. 454, 797 P.2d 243 (“A
parent’s right in custody is constitutionally
protected[.]”).
{15} Our Supreme Court has recognized, and we
have held, that a district court may modify a custody
order on an interim basis without a hearing where the
court determines that the modification is in
accordance with the safety, welfare, and best interests
of the child. See Tuttle v. Tuttle, 1959-NMSC-063,
¶ 11, 66 N.M. 134, 343 P.2d 838 (stating that in an
emergency, a district court may issue an order that
temporarily modifies custody of children without a
hearing, where the order is guided by the “welfare and
best
interests
of
the
children”);
Yount,
1993-NMCA-143, ¶ 25 (stating that the district court

11a
may enter an interim order modifying custody without
a hearing “when a child’s safety is threatened”).
{16} Here, the district court’s Interim Order, which
was entered without prior notice or a pre-deprivation
hearing, was based on the court’s determination that
if such a drastic step was not taken, then the safety
and welfare of Child may be at risk. Specifically, the
district court found, in light of the advisory
consultation
recommendations,
there
were
“significant concerns regarding Mother’s ability to
parent, and [Child’s] safety while with Mother
including: . . . [t]he results of Mother’s psychological
testing and diagnosis[,]” which showed that “Mother is
so highly consumed with this case that it interferes
with her ability to spend time with [Child] to provide
enriching activities.” The district court further found
that “[t]he investment of time and energy Mother is
making to analyze and interpret this case appears
unhealthy and confirms the psychologist’s assessment
that her analytic skills can be detrimental when they
are paired with suspiciousness, defensiveness, and
self-protection.”
Under these circumstances, we
conclude the district court acted reasonably and in
accordance with the safety, welfare, and best interest
of Child in immediately adopting the advisory
consultation recommendations, and as a result,
ordering sole legal custody of Child be transferred to
Father on an interim basis.
See Yount,
1993-NMCA-143, ¶ 4–5, 24–26 (determining that the
mother’s procedural due process rights were not
violated, where the district court entered an ex parte
order giving custody of her child to the Children,
Youth and Families Department on an interim basis,
and without a pre-deprivation hearing, based on a

12a
determination that the child’s safety and welfare may
be at risk with the mother); see also In re
Guardianship of Ashleigh R., 2002-NMCA-103, ¶ 34,
132 N.M. 772, 55 P.3d 984 (“In child custody matters,
even when the court must protect the rights of the
parent, the court has equitable power to fashion a
remedy that protects the best interest of the children
as well.”).
{17} Mother was afforded due process after the
entry of the Interim Order through the
post-deprivation proceedings on her objections to the
Interim Order. Due process, in the context before us,
requires consideration of the Mathews v. Eldridge, 424
U.S. 319, 335 (1976) factors, described as: “(1) a
parent’s significant interest affected by the
proceeding[;] (2) the value of additional safeguards
and the risk of an erroneous deprivation unless
alternative arrangements are made[;] and (3) the
State’s vital interest in protecting the welfare of
children.” State ex rel. Children, Youth & Families
Dep’t v. Christopher L., 2003-NMCA-068, ¶ 15, 133
N.M. 653, 68 P.3d 199. In this case, as in Christopher
L., “in balancing the parent’s rights and interest and
the State’s rights and interest, the determinative
factor is the second prong of the Mathews test,
balancing the risk of error with the value of additional
safeguards.” See Christopher L., 2003-NMCA-068,
¶ 15 (omission, alteration, internal quotation marks,
and citation omitted). Under this prong, New Mexico
appellate courts consider whether the complaining
party was given:
(1) adequate notice of the charges or basis for
government action; (2) a neutral decision-maker;
(3) an opportunity to make an oral presentation

13a
to the decision-maker; (4) an opportunity to
present evidence or witnesses to the decisionmaker; (5) a chance to confront and
cross-examine witnesses or evidence to be used
against the individual; (6) the right to have an
attorney present the individual’s case to the
decision-maker; (7) a decision based on the record
with a statement of reasons for the decision.
See Harrell, 1994-NMSC-096, ¶ 25 (internal quotation
marks and citation omitted).
{18} Regarding the first Harrell factor, although
neither Mother nor Father were given notice prior to
the September 27, 2013 hearing that the advisory
consultation recommendations were complete and
that the district court intended to immediately adopt
them by order, the district court gave the parties
copies of the advisory consultation recommendations
and immediately set a hearing to address the parties’
objections—which was originally set to occur on
December 10, 2013. The district court also stated in
the Interim Order that the parties would be given an
opportunity to object, consistent with Rule 1-125(E)
(stating that “[i]f a party does not agree with the
recommendations, within eleven (11) days of the filing
of the advisory consultation recommendations, the
party shall file a motion specifically describing the
reasons
for
a
party’s
objections
to
the
recommendations”), to the advisory consultation
recommendations.
{19} Regarding the second through sixth Harrell
factors, the record shows that Mother was afforded,
after substantial discovery and drawn out litigation,
an opportunity to make an oral presentation of her

14a
objections
to
the
advisory
consultation
recommendations and Interim Order, to present
evidence, and to examine witnesses and confront
witnesses against her in a post-deprivation hearing
with her attorney present. Specifically, following the
September 27, 2013 hearing, Mother filed objections
and her Rule 1-060(B) motion for relief from the
Interim Order on October 9, 2013. After filing her
objections
to
the
advisory
consultation
recommendations and Interim Order, as we have
already noted, there was a significant delay in the
hearing on Mother’s objections for the reasons stated.
{20} Mother was then afforded a full evidentiary
hearing to address her objections to the advisory
consultation recommendations and Interim Order,
which occurred over three days on October 28 and 29,
2014 and February 2, 2015. At this hearing, Mother
called witnesses on her behalf, cross-examined
witnesses against her, and argued the merits of her
objections. After this hearing, and in satisfaction of
the seventh Harrell factor, the district court filed the
Final Order, in which it applied Section 40-4-9 and
determined that based on the record before it, Father
should be awarded permanent sole legal custody of
Child.
{21} We conclude that the Interim Order is not void
as entered in violation or Mother’s right to procedural
due process. In so concluding, we need not address
Mother’s related argument that a determination that
the Interim Order is void requires that sole legal
custody of Child be returned to her and that all
subsequent orders of the district court on the issue of
custody and visitation should also be deemed void.

15a
II.

Denial of Mother’s Motion for a Bonding
Study

{22} Mother also argues that the district court erred
in denying her motion for a bonding study.
{23} “We review a district court’s discovery orders
for an abuse of discretion.” Vanderlugt v. Vanderlugt,
2018-NMCA-073, ¶ 30, 429P.3d 1269. “An abuse of
discretion occurs when the ruling is clearly against the
logic and effect of the facts and circumstances of the
case.” Chavez v. Lovelace Sandia Health Sys., Inc.,
2008-NMCA-104, ¶ 25, 144 N.M. 578, 189 P.3d 711
(internal quotation marks and citation omitted).
{24} In its order denying Mother’s motion for a
bonding study, the district court found that Mother’s
motion was an untimely discovery motion, which was
not filed until more than eight months after the
district court’s entry of the Final Order. The district
court further found that “[p]rior to the trial on the
merits, the parties had an extensive period in which to
conduct discovery. [Mother] had an opportunity to
participate in discovery and the Court issued orders at
[Mother’s] request requiring additional disclosure of
information from Family Court Services and Las
Cumbres Community Services.” We agree; and under
these circumstances, we cannot say that the district
court’s denial of Mother’s motion was clearly against
the logic and effect of the fact and circumstances of the
case. We therefore conclude that the district court did
not abuse its discretion in denying Mother’s motion for
a bonding study.
III.

Father’s Request for Fees on Appeal

{25} Finally, because Father is the prevailing party
in this appeal, we address his request for an award of

16a
attorney fees incurred as a result of this appeal.
Father correctly asserts that NMSA 1978, Section,
40-4-7 (1997) and Rule 1-127 NMRA provide that
attorney fees may be awarded to the prevailing party
on appeal in custody cases, see Rhinehart v. Nowlin,
1990-NMCA-136, ¶ 49, 111 N.M. 319, 805 P.2d 88;
Hester v. Hester, 1984-NMCA-002, ¶ 26, 100 N.M. 773,
676 P.2d 1338 (same), and we hold that Father is
entitled to file a motion pursuant to the foregoing
authority for such attorney fees. However, because
the determination of an award of attorney fees in a
domestic relations case “requires consideration of the
disparity of the parties’ resources, prior settlement
offers, the total amount of fees and costs expended by
each party and success on the merits[,]” we remand to
the district court for findings of fact and conclusions of
law on the issue of attorney fees. See Jury v. Jury,
2017-NMCA-036, ¶ 59–60, 392 P.3d 242 (internal
quotation marks and citation omitted). Costs should
be awarded by the clerk.
CONCLUSION
{26} The district court’s Interim Order and order
denying Mother’s motion for a bonding study are
affirmed. We remand to the district court for further
proceedings in accordance with this opinion.
{27} IT IS SO ORDERED.
s/ Michael E. Vigil
MICHAEL E. VIGIL, Judge

17a
WE CONCUR:

s/ Julie J. Vargas
JULIE J. VARGAS, Judge
s/ Henry M. Bohnhoff
HENRY M. BOHNHOFF, Judge

18a

APPENDIX C

[FILED UNDER SEAL]

25a

APPENDIX D

STATE OF NEW MEXICO
COUNTY OF RIO ARRIBA
FIRST JUDICIAL DISTRICT
CASE NO.: D-0117-DM-2010-00151
REX E. STUCKEY,
Petitioner,
vs.
TAMRA L. LAMPRELL,
Respondent.
ORDER DENYING MOTION FOR
PROTECTION
THIS MATTER came before the Court on
August 26, 2014 on the Motion for Protection. The
Petitioner, Rex Stuckey, appeared in person and with
his attorney Gary Boyle. The Respondent, Tamra
Lamprell, appeared in person and with her attorney
Julie Rivers. The Attorney General’s Office appeared
through Assistant Attorney General Rebecca Parish.
Having heard the presentation of the parties, the
Court FINDS and ORDERS:
1.

The Court has subject matter and personal
jurisdiction in this case.

2.

Gary Lombardo of Family Court Services with
the First Judicial District Court issued

26a
Advisory
Consultation
Recommendations,
which were adopted by the Court on an interim
basis.
3.

The Respondent issued two subpoenas in this
matter. One subpoena was issued to Mr.
Lombardo. The Second subpoena was issued to
Dr. Warren Steinman. Both subpoenas request
the production of documentation relating to the
Recommendations made by Mr. Lombardo as
part of the advisory consultation.

4.

Dr. Steinman filed Objections to the subpoena
that was issued to him.

5.

In his Objections, Dr. Steinman states that the
material requested in the subpoena may not be
produced without an order from the Court.

6.

On behalf of Mr. Lombardo, the Attorney
General’s Office filed a Motion for Protection.
Dr. Steinman joined this Motion. The Motion
requests that the Court quash the subpoenas or
otherwise grant Mr. Lombardo and Dr.
Steinman protection from the subpoenas.

7.

The Advisory Consultation Recommendations
submitted and adopted by the Court on an
interim basis had a fundamental impact on this
case that resulted in a reversal in the custody
arrangement between the parties.

8.

Without disclosure of the documentation
obtained, used and generated as part of the
advisory consultation, a party’s ability to
respond and object to the Advisory Consultation
Recommendations is impaired.

27a
9.

Looking at the rules of discovery for guidance,
the parties have the right to assess the
reliability of the science and methodology that
was used in the formulation of the Advisory
Consultation Recommendations.

10. Due process requires disclosure.
11. Also, the documentation requested by the
Respondent is not necessarily confidential. The
documentation was obtained, used and
generated as part of an advisory consultation
and not as part of a mediation proceeding.
12. The Motion to quash the subpoenas is denied.
13. Mr. Lombardo and Dr. Steinman shall comply
with the subpoenas within 10 business days
from the filing date of this order.
14. The documentation and material generated in
the response to the subpoenas shall be provided
to attorney Julie Rivers and to attorney Gary
Boyle.
15. The attorneys shall not disclose the contents of
any of the documentation or material that they
obtain as a result of the subpoenas to any other
person, including their clients.
16. The documentation and material shall only be
used in preparation for the upcoming hearing
on objections to the Advisory Consultation
Recommendations and Priority Consultation
Recommendations.
17. Julie Rivers may provide a copy of the
documentation and materials to her expert
witness, Dr. Sam Roll.

28a
18. If Mr. Boyle retains an expert (either a
psychologist or psychiatrist), Mr. Boyle is
permitted to supply a copy of the documents and
materials to that expert only.
19. The experts to whom the documentation and
material is provided pursuant to this order shall
first sign a non-disclosure agreement in
accordance with the terms of this order.
20. Failure to abide by the Court’s order limiting
disclosure may result in initiation of contempt
proceedings.
SO ORDERED:
s/ Matthew Wilson
Matthew J. Wilson
District Court Judge

29a
CERTIFICATE OF MAILING
I, the undersigned, do hereby certify that I mailed
or hand delivered a copy of this document to all parties
listed below on September 2, 2014.
Rex E. Stuckey
c/o Gary Boyles, Esq.
15 Spirit Court
Santa Fe, NM 87506

Tamra L. Lamprell
c/o Julie Rivers, Esq.
P.O. Box 2325
Santa Fe, NM 87504

Gary King
New Mexico Attorney General
c/o Scott Fuqua, Esq.
Assistant Attorney General
408 Galisteo St.
Santa Fe, NM 87501
s/ Hollie Tanabe
Hollie Tanabe, TCAA

30a

APPENDIX E

[FILED UNDER SEAL]

33a

APPENDIX F

IN THE COURT OF APPEALS OF THE STATE
OF NEW MEXICO
REX E. STUCKEY,
Petitioner-Appellee,
No. 33,295
Rio Arriba
County
DM-1-151
D117 DM 2010
0015

vs.

TAMRA L. LAMPRELL,
Respondent-Appellant.
/
ORDER

This Court has considered Tamra L. Lamprell’s
Rule 12-503 NMRA Petition for Writ of Error, as well
as Rex. E. Stuckey’s Response to the Petition.
THE COURT ORDERS that the petition is
DENIED and that this matter is remanded to the
District Court of Rio Arriba County for further
proceedings.
We further DENY Lamprell’s request for a stay, as
well as Stuckey’s request for attorney fees on appeal.

34a
s/ Roderick T. Kennedy
RODERICK T. KENNEDY, Chief
Judge

s/ Linda M. Vanzi, Judge
LINDA M. VANZI, Judge

35a

APPENDIX G

[FILED UNDER SEAL]

42a

APPENDIX H

IN THE SUPREME COURT OF THE
STATE OF NEW MEXICO
May 06, 2019
NO. S-1-SC-37579
REX E. STUCKEY,
Petitioner-Respondent,
v.
TAMRA L. LAMPRELL,
Respondent-Petitioner.
ORDER
WHEREAS, this matter came on for consideration
by the Court upon motion for rehearing and brief in
support, and the Court having considered the
foregoing and being sufficiently advised; Chief Justice
Judith K. Nakamura, Justice Barbara J. Vigil, Justice
C. Shannon Bacon, and Justice David K. Thomson
concurring, Justice Michael E. Vigil recusing;
NOW, THEREFORE, IT IS ORDERED that the
motion for rehearing is DENIED.
IT IS SO ORDERED.

43a
WITNESS, the Honorable Judith
K. Nakamura, Chief Justice of the
Supreme Court of the State of New
Mexico, and the seal of said Court
this 6th day of May, 2019.
Joey D. Moya, Clerk of Court
Supreme Court of New Mexico
By /s/ Madeline Garcia
Chief Deputy Clerk
I CERTIFY AND ATTEST:
A true copy was served on all parties or their counsel
of record on date filed.
Madeline Garcia
Clerk of the Supreme Court
of the State of New Mexico

44a

APPENDIX I

IN THE COURT OF APPEALS OF
THE STATE OF NEW MEXICO
REX E. STUCKEY,
Petitioner-Appellee,
v.
TAMRA L. LAMPRELL,

No. A-1-CA-35538
Rio Arriba County
D-117-DM-2010-00151

Respondent-Appellant.
/

ORDER DENYING MOTION FOR REHEARING
This matter is before the Court on Appellant's
motion for rehearing and the brief in support thereof.
The motion has been considered by one of the original
panel members and, pursuant to Rule 12-404(B)(2)
NMRA, another judge has been designated to consider
the motion.
THE COURT ORDERS THAT the motion is
DENIED.
s/J. Miles Hanisee
J. MILES HANISEE, Judge
s/Julie J. Vargas
JULIE J. VARGAS, Judge

45a

APPENDIX J

STATE OF NEW MEXICO
COUNTY OF RIO ARRIBA
FIRST JUDICIAL DISTRICT
Case No. D-0117-DM-2010-00151
REX E. STUCKEY,

)

Petitioner,

)

vs.

)
)

TAMRA L. LAMPRELL,
Respondent,

)
)
)

ORDER DENYING RESPONDENT’S MOTION TO
RECONSIDER FEBRUARY 13, 2015 FINAL ORDER
THIS MATTER having come before the Court for
hearing on February 29, 2016, and the Petitioner
appearing in person and through his counsel, Gary W.
Boyle, and the Respondent appearing in person and
through her counsel, Thomas C. Montoya, and the
Court having reviewed the parties’ filings and having
heard the parties’ arguments on the motion, and being
fully advised in the premises;
IT IS THEREFORE ORDERED, ADJUDGED AND
DECREED:

46a
1. The Court has jurisdiction over this proceeding.
2. The Court has not heard anything that would
change the Court’s ruling regarding sole custody in
this case.
3. There is some value to sole custody when one
parent cannot co-parent. The value lies in that the
child will not be exposed to parental conflict. The
Court cannot see the parents in this case functioning
at all under a joint custody situation given the history
and facts of this case.
4. Father will continue to have sole custody of the
child which is in the child’s best interests.
5. The Court has carefully considered Mother’s
argument that Mother’s and the child’s constitutional
rights to due process of law were violated by the
Court’s September 27, 2013 order. The Court does not
find that there was a due process violation or
constitutional violation as to Mother or the child.
6. Based on the findings recited above, the Court
concludes that Respondent’s Motion to Reconsider the
Court’s Final Order issued February 13, 2015 should
be and the same hereby is denied.
7. The Court finds and concludes further that it is in
the best interests of the child to amend the Court’s
Final Order by providing Mother with unsupervised
visitation in Santa Fe, New Mexico in addition to that
provided for in the Final Order as follows:
a. Mother shall have a period of responsibility for
the child on Mother’s Day and on Mother’s birthday
each year from 9:00 a.m. until 5:00 p.m.
b. Mother shall have a period of responsibility for
the child on Christmas Day in even numbered years

47a
from 9:00 a.m. until 5:00 p.m. Father shall have
responsibility for the child on Christmas Day in oddnumbered years.
c. Mother shall have a period of responsibility for
the child on Thanksgiving Day in odd numbered
years from 9:00 a.m. until 5:00 p.m.
d. Mother shall have a period of responsibility for
the child on Easter Sunday in even numbered years
from 9:00 a.m. until 5:00 p.m.
e. Mother shall have a period of responsibility for
the child on Memorial Day in even numbered years
from 9:00 a.m. until 5:00 p.m. Father shall have
responsibility for the child on Memorial Day in odd
numbered years.
f. Mother shall have a period of responsibility for
the child on the Fourth of July in odd numbered
years from 9:00 a.m. until 5:00 p.m. Father shall
have responsibility for the child on the Fourth of
July in even numbered years.
8. The minor child shall continue in counseling with
Rhonda Albin at Lark’s Nest Family Counseling for
one hour each week.
9. Mother’s request for additional
visitation with the child is denied.

weekend

10. All provisions of the Court’s Final Order not
altered by the terms of this Order shall remain in full
force and effect.

48a
SO ORDERED:
s/ Matthew Wilson
Matthew Wilson
District Court Judge
Submitted by:
Gary W. Boyle
Attorney at Law
15 Spirit Court
Santa Fe, NM 87506
(505) 989-5057
Attorney for Petitioner
s/ Gary W. Boyle

Approved as to form:
Electronically Approved 3/7/16
Thomas C. Montoya
Atkinson & Kelsey, P.A.
P.O. Box 3070
Albuquerque, NM 87190
(505) 883-3070
Attorney for Respondent

49a

APPENDIX K

IN THE SUPREME COURT OF THE
STATE OF NEW MEXICO
No.

S-1-SC-37579

REX E. STUCKEY,
Petitioner-Respondent,
vs.
TAMRA L. LAMPRELL,
Respondent-Petitioner.

PETITION FOR WRIT OF CERTIORARI
TO THE NEW MEXICO COURT OF APPEALS

Oral argument is respectfully requested.
Respectfully submitted,
/s/ Thomas C. Montoya
Thomas C. Montoya
Atkinson & Kelsey, P.A.
P.O. Box 3070
Albuquerque, New Mexico
87190-3070
505-883-3070
Appellate Counsel for
Respondent-Petitioner (“Mother”)

50a
***
A.

Grounds Invoking Supreme Court
Jurisdiction

N.M. Const. art. VI, §2 (appellate jurisdiction); §3
(certiorari jurisdiction); NMSA 1978 Sections 34-514(B)(l)-(4) (certiorari).
B.

Date Of Decisions

1. December 18, 2018.Memorandum Opinion,
Exhibit 1, attached.
2. January 2, 2019
Exhibit 2, attached.

Motion

For

Rehearing,

3. February 11, 2019 Order Denying Motion For
Rehearing, Exhibit 3, attached.
C.

Questions Presented For Review

1. Issue 1. Whether the September 27, 2013
Order issued by the district court, which summarily
removed joint and physical custody of the child from
Mother, and granted sole legal and physical custody of
the child to Father, with only a 2 hour supervised visit
per week with Mother, is void, or without waiver,
voidable, as a matter of law, as lacking due process
under federal and state law, when the Order was
issued without notice that a modification of child
custody would be considered, when the court
immediately and summarily adopted the First
Judicial District Court Clinic Recommendations in a
Report, without any witness testifying, without
admitting the Report or Recommendations in
evidence, when the Report and Recommendations
were originally provided to the parties at the
September 27, 2013 hearing, after the Court had
already adopted the Recommendations in its Order,

51a
when the parties had no opportunity to present
evidence or examine witnesses, and when the court
ordered the immediate custody modification from joint
custody, and physical custody with Mother, to sole
legal and physical custody with Father, in the first
four (4) minutes of the hearing?
a.
This issue was preserved. A-l-CA-35538;
Brief in Chief pp. 28–41.
2. Issue 2. Whether, lacking due process, the
district court had authority, and thus jurisdiction, to
enter the September 27, 2013 Order, rendering the
Order void, or voidable?
a.
This issue was preserved. A-1-CA-35538;
Brief in Chief pp. 28–41. Reply Brief, pp. 17–18.
3. Issue 3.
Whether, the void or voidable
September 27, 2013 Order requires that the child’s
custody be restored to the status quo prior to entry of
the void or voidable order, thereby voiding all
subsequent orders, resulting in immediate custody of
the child with Mother?
a.
This issue was preserved. A-l-CA-35538;
Brief in Chief pp. 41–44. Reply Brief, pp. 17–18.
4. Issue 4. Whether, and to what extent, a district
court has authority to engage in ex parte
communications with a witness, or independently
investigate facts or consider as evidence matters
outside of regular judicial proceedings, contrary to the
Code of Judicial Conduct, and enter a valid order
therefor?
a.
This issue was preserved. A-1-CA-35538;
Brief in Chief pp. 39–41; Motion For Rehearing, pp. 6–
7.

52a
D.

Facts Material to Questions Presented

The essential facts are undisputed, and are of record
as provided below.
The parties were never married. RP 1. The child
was born in Durango, Colorado in 2010. RP 297, ¶ 3.
Mother resides in Pagosa Springs, Colorado. RP 819,
¶ 9. Father resides in Santa Fe, New Mexico. RP 819,
¶ 9.
On December 14, 2012, the district court entered a
final custody Order. This Order granted the parties
joint legal custody of the child, with physical custody
with Mother in Colorado, subject to specified visitation
with Father. RP 818, ¶4(a); RP 811.
On February 6, 2013, Father filed a motion to
re-open the case, prior to the time the final Order
permitted, which motion did not seek physical nor sole
legal custody of the child, but unsupervised visitation.
RP 827. Father alleged no change in circumstances
which would justify custody modification of the
December 14, 2012 final Order.
On August 21, 2013, Father filed a contempt motion
for alleged unlawful withholding of the child by
Mother. RP 1025–1033. On September 3, 2013,
Mother filed contempt motion alleging unlawful
withholding of the child by Father. RP 1064–1073.
The court entered a September 6, 2013 order finding
Mother in contempt for non-compliance with court
ordered visits. The court ordered visits to resume, but
supervised. RP 1074–1077, p. 3, ¶s 1 and 2. The court
ordered Mother’s September 3, 2013 Motion to be
heard September 20, 2013, and stated, “This Court
shall also, at that time, discuss the progress of the
Advisory Consultation Recommendations and any

53a
request of the Consultant for additional information.”
RP 1076, ¶4.
On September 18, 2013, the court reset hearing on
Mother’s September 3, 2013 Motion to September 27,
2013 at 9:00 a.m.. RP 1100–1101. In that Order, the
court directed that the child be brought to the
courthouse thirty minutes before the hearing to visit
Father. Id.
On September 27, 2013, the court entered Interim
Order
Adopting
Advisory
Consultation
Recommendations. RP 1105–1109. This Order was
issued without notice that a custody modification
would be considered. The Order stated “. . . the matter
came before the Court on September 27, 2013 for a
Status Hearing/Conference.” RP 1105. The Order
included the custody provisions contained in Issue 1
above, pp. 1–2 of this Petition.
At the September 27, 2013 hearing, the court
directed staff to hand out the Advisory Consultation
Report, which the parties had not previously received.
RP 3063, line 25 to RP 3064, line 4. The Advisory
Consultation Report consists of 20 single spaced
typewritten pages.
At the September 27, 2013 hearing, the Advisory
Consultation Report was not received in evidence.
RP 3061–3081. It appears that the court prepared the
September 27,
2013
Order
adopting
the
Recommendations prior to the hearing. The Court
stated “The court order is being finalized now. It is
being filed, and each of you will receive a copy of it.”
RP 3064, page 4, lines 19–21.
At the September 27, 2013 hearing, no witnesses
testified, no testimony was elicited regarding the

54a
Advisory Consultation Report and there was no direct
nor cross-examination of the author thereof. RP 3061–
3081.
During the September 27, 2013 hearing, the court
ordered the child be immediately taken from the
courthouse by Father, and granted Father immediate
sole legal and physical custody of the child in
Santa Fe, and allowed Mother supervised visitation
for one time per week (effectively 1½ hours). The
Court stated:
“Because of the nature of the report and the —
the concerns raised by Gary Lombardo regarding
Mother,
this
Court
is
adopting
the
recommendations
immediately.
The
recommendations are that Father have sole
custody of this child effective immediately. The
child is to be taken from the courthouse by
Father.” RP 3064 p. 4, lines 7–13.
The September 27, 2013 hearing commenced at
9:25:24 a.m. The order quoted above in the prior
subparagraph occurred at 9:28:52 a.m., less than four
minutes after the hearing commenced. Court Monitor
Log of September 27, 2013 hearing. RP 3079.
At the September 27, 2013 hearing, Mother
requested permission to say goodbye to the child. The
court denied the request, stating “No, but Family
Court Services is concerned about that interaction.”
RP 3071, lines 22–25. The Advisory Consultation
Report states nothing about such a concern.
Prior to the September 27, 2013 hearing, the child
had been in Mother’s continuous care and custody
since birth for over 3 years and 7 months.

55a
Mother’s September 3, 2013 Motion, which was the
matter noticed to be heard on September 27, 2013, and
for which Mother was prepared with law enforcement
and Safe House witnesses to testify in support of her
contempt motion, and which could have countered
“safety concerns” allegations and raised “safety
concerns” on Father’s part, was not heard. RP 3062,
lines 11–13; RP 3070, lines 17–20.
The Court set hearing on any objections to the
Advisory
Consultation
Recommendations
on
December 10, 2013, 74 days after issuance of the
Order adopting them. RP 1106, ¶5.
On October 9, 2013, Mother filed Amended
Objections to the Order Adopting Advisory
Consultation Recommendations. RP 1123–1158. The
hearing on Mother’s objections was postponed for a
number of significant due process reasons, including
substantial opposition from the Attorney General’s
office to Mother’s discovery requests from Family
Court Services regarding its Report, and objection to
Mother’s discovery of the Court Clinic’s psychologist,
Dr. Warren Steinman.
September 2, 2014 Order
Denying Motion For Protection. RP 1658–1661. In
that Order the court found:
“The Advisory Consultation Recommendations
submitted and adopted by the Court on an
interim basis had a fundamental impact on this
case that resulted in a reversal in the custody
arrangement between the parties,” (Emphasis
added.)
On June 30, 2014, following hearing, the court
entered Order Denying Rule 60B Motion, RP 1542–
1544. No evidence was admitted at the hearing. Court

56a
Monitor Log of June 26, 2014 hearing, Exhibit E,
attached to June 12, 2017 Memorandum In Opposition
To Second Notice Proposed Summary Disposition.
[6-26-14 Tr. 9:03:54 to 10:14:58.]
On February 13, 2015, the court entered Final
Order Resolving The Objections To The September
2013 Advisory Consultation, The July 2014 Priority
Consultation
And
The
Respondent’s
Motion
Concerning An Expedited And Extended PC, To
Expand Visitation And To Lift Supervision
Requirements (“February 13, 2015 Final Order”).
RP 2008–2013.
The Court Clinic Report and Recommendations,
which were the basis of the September 27, 2013 Order,
were not received in evidence until the October 29,
2014 hearing on the merits. [Respondent’s Exhibits,
Volume I, Exhibit 6.]
The February 13, 2015 Final Order included in the
findings, RP 2009–2010:
a.
“The minor child is fragile and of tender
years.” p. 2, ¶3;
b.
“Neither party is a direct or imminent
threat to the minor child,” p. 2, ¶4. (Emphasis added.)
c.
“The child should not be subject to
another major change in custody at this time.” p. 3,
¶16.
At trial, the author of the Advisory Consultation
Report, Gary Lombardo, a Licensed Professional
Clinical Counselor, testified not as an expert, that
Family Court Services doesn’t ordinarily make
diagnostic conclusions, and that he did not make such
a diagnosis regarding Mother, and that neither did

57a
Dr. Warren Steinman, referenced in the Report, make
a diagnosis of a personality disorder for Mother.
Instead, Dr. Steinman did not “rule out” a personality
disorder for Mother. To the contrary, Mr. Lombardo
testified that Dr. Leslie Pearlman, who had previously
performed diagnostic evaluations for Family Court
Services, stated that Mother had no personality
disorder, which testimony was directly confirmed at
trial by both Dr. Pearlman and Dr. Samuel Roll.
Mr. Lombardo testified that his allegations regarding
Mother’s mental condition and safety concerns for the
child were speculations and suppositions. [Testimony
of Gary Lombardo, Family Court Services 10-29-14
Tr. 10:29; 11:29–11:37]
In the February 13, 2015 Final Order, which
permitted unsupervised visitation of the child with
Mother, the court made no finding regarding safety
issues which would have justified the September 27,
2013 Order at the time it was issued, nor any other
time.
E.

Basis For Granting The Writ
1.

Conflicts with Supreme Court Decisions

a.
Heckathorn
v.
Heckathorn,
1967-NMSC-017, ¶10–11, 77 N.M. 369, 423 P.2d 410
(S. Ct. 1967). The lack of power or authority to decide
a case renders a judgment void.
b.
Phoenix Funding, LLC v. Aurora Loan
Services, LLC, 2017-NMSC-010, ¶s 26, 27 and 29, 390
P.3d 174: . . . a court’s power or authority to decide the
particular matter presented is not distinct from
subject matter jurisdiction.”
c.
Merrill v. Merrill, 1971-NMSC-036, ¶10,
¶9, 82 N.M. 458, 483 P.2d 932:

58a
“Judicial discretion and decision must be based
on evidence introduced at the trial and since the
record proper in the instant case does not support
the trial court’s decision, there was an abuse of
discretion in entering the order changing custody
of the minor children without evidentiary
support.”
“Trial courts have a wide discretion in custody
matters. That discretion is “judicial” and must
be based on evidence introduced in the case and
is subject to review. (Citing Martinez, below)”
“Judicial discretion is a discretion which is not
arbitrary, vague or fanciful, or controlled by
humor or caprice, but is a discretion governed by
principal and regular procedure for the
accomplishment of the ends of right and justice.
* * * (Citations omitted.)”
d.
Martinez v. Martinez, 1946-NMSC-003,
¶¶ 9–12, 49 N.M. 405, 165 P.2d 125 (S. Ct. 1946):
“... it is certain that [the Guardian ad Litem’s
report] was the basis of [the trial court’s] decision
to appoint the parents of the defendant as
custodians of the child, although it had not been
introduced in evidence, filed in the case, or its
contents disclosed to counsel. ...”
“... the witnesses should testify at a hearing
before the court... conducted as the law directs.”
“It was, obviously, error on the part of the trial
court to determine the issues in this case upon a
confidential report of his public welfare worker,
based upon unsworn testimony, the contents of
which were not evidence in the cause or disclosed
to the parties.”

59a
e.
Oldfield v. Benavidez, 1994-NMSC-006,
¶14, 116 N.M. 785, 867 P.2d 1167 (S. Ct. 1994). There
is a clearly established right to familial integrity
embodied in the Fourteenth Amendment.
f.
Tuttle v. Tuttle 1959-NMSC-063, ¶s 9,
10–11, 66 N.M. 134, 343 P.2d 838 (S. Ct. 1959):
“... due and orderly process demand ... that there
shall be opportunity to bring before the court
matters in rebuttal of such proof, if any there be.
These rights were denied by the order made
below.
(Citing Martinez above) (citations
omitted).”
“... the statute [currently NMSA 1978
Section 40-4-7] does not mean that the court can
act without a hearing, after notice to all
necessary parties, and after giving them an
opportunity to present evidence in connection
therewith.”
“We do not wish to be understood as holding that
in the event of an emergency, the court cannot
make such orders for temporary care and custody
as seem to be indicated, but we do hold that
before any parent ... having legal custody is
deprived of the same, or any change made
therein, the usual and ordinary procedures must
be adhered to. ... The principal guide to decision
remains as always the welfare and best interests
of the children. (Citations omitted). However,
this shall be determined after a proper and
orderly hearing of the issue of custody with all
interested parties having a right and opportunity
to be present and produce evidence.”

60a
g.
Nesbit
v.
City
of
Albuquerque,
1977-NMSC-107, ¶¶11–12, 91 N.M. 455, 575 P.2d
1340 (S. Ct. 1977). Because due process of law was
violated, no subsequent act could correct the defect.
“There is no discretion on the part of a district
court to set aside a void judgment. Such a
judgment may be attacked at any time in a direct
or collateral action. (citation omitted.)”
h.
A judgment outside the issues is not a
mere irregularity, but is extrajudicial and invalid.
Walls v. Eruption Mining Co., 1931-NMSC-052, ¶18,
36 N.M. 15, 6 P.2d 1021 (S. Ct. 1931)
2.

Conflicts with Court of Appeals’ Decisions

a.
Classen v. Classen, 1995-NMCA-022, ¶9–
10, 119 N.M. 582, 893 P.2d 478 (Ct. App. 1995). A due
process violation results in an invalid judgment which
must be set aside.
Classen cited Mullane v. Central Hanover Bank &
Trust Co., 339 U.S. 306, 313, 314 (1950):
“An elementary and fundamental requirement of
due process in any proceeding [that] is to be
accorded finality is notice reasonably calculated,
under all the circumstances, to apprise interested
parties of the pendency of the action and afford
them an opportunity to present their objections.”
Ibid, at 10.
b.
Elder v. Park, 1986-NMCA-034, ¶40, 104
N.M. 163, 717 P.2d 1132:
“The relevant custody acts provide that
reasonable notice and an opportunity to be heard
shall be given to contestants before a decree or
order is made. 28 U.S.C.A. § 1738A(e); [citation

61a
to predecessor of NMSA 1978 Section 40-10A205] (citation omitted).”
c.
In re Adoption Petition of Darla D. v.
Grace R., 2016-NMCA-093, ¶64, 382 P.3d 1000:
“Petitioners cite no case holding that
inadmissible hearsay testimony is admissible
simply because it is proffered by a GAL, let alone
in a proceeding implicating a parent’s
fundamental due process rights. A GAL is not
legally authorized to circumvent applicable rules
of evidence by attaching inadmissible hearsay
documents to a report. The district court should
not have admitted the GAL’s amended report or
relied upon it in determining whether to grant
the petition.”
3. “It is clear that a judge, himself, could not go to
visit the scene and thereby obtain extrajudicial
information.” State v. Doe, 1985-NMCA-065, ¶33, 103
N.M. 233, 704 P.2d 1109 (Ct. App. 1985)
4. Conflicts with New Mexico and United
States Constitutions
a.
U.S. Const. Amend. XIV,
¶1:
“No
State ... shall deprive any person of life, liberty, or
property, without due process of law.”
b.
N.M. Const, art. II: “No person shall be
deprived of life, liberty or property without due process
of law.”
c.
State v. Urban, 2004-NMSC-007, ¶10,
135 N.M. 279, 87 P.3d 1061. This Court has certiorari
jurisdiction to review a claim of violation of rights
provided in federal or state constitutions.

62a
5.

Issues Of Substantial Public Interest

a.
Issues 1–3. Given the facts of the case,
this Court should determine the circumstances, if any,
whereby the lack of a pre-deprivation hearing in a
child custody case comports with due process and the
consequence for failure to accord due process.
b.
Issue 4. This Court should determine
whether a district court may engage in ex parte
communications with a witness, or independently
investigate facts or consider extrajudicial matters,
contrary to the Code of Judicial Conduct.
Rule 21-209 NMRA of the Code of Judicial
Conduct prohibits the ex parte communications and
independent investigation and consideration of
extrajudicial facts by the district court which occurred
in this case.
This Court has certiorari jurisdiction to consider
the application of rules of this Court. Spencer v.
Barber, 2013-NMSC-010, ¶4, 299 P.3d 388; Allen v.
Lemaster, 2012-NMSC--001, ¶¶1, 11, 267 P.3d 806
F.

Argument
Section E, above, is adopted.

Memorandum Opinion ¶16 references to “a
determination” (line 4), and findings (lines 6, 11)
regarding the child’s “safety”, “welfare” and “best
interests”, are extrajudicial, and invalid and don’t
exist. Walls, State v. Doe, above.
Memorandum Opinion citations, principally, Yount
v. Millington, 1993-NMCA-143, 117 N.M. 95, 869 P.2d
283 and Mathews v. Eldridge, 424 U.S. 319, 96 S.Ct.
893, 47 L.Ed.2d 18 (1976), contain pre-deprivation due
process procedures absent from this case. Motion For

63a
Rehearing, pp. 7–18; 23–28. In none of the cases cited
did the district court improperly set itself in motion to
dispense with a pre-deprivation hearing. Walls,
above, at ¶18.
G.

Prior Appeals

1. Lamprell v. The Honorable Sarah M. Singleton,
et al, No. S-l-SC 32788;
2. Lamprell v. Stuckey, No. 33,295, Petition For
Writ Of Error in the Court of Appeals.
H.

Prayer For Relief

The Supreme Court should accept certiorari,
reverse the Court of Appeals and the District Court
and grant custody of the child to Mother.
Respectfully submitted,
/s/ Thomas C. Montoya
Thomas C. Montoya
P.O. Box 3070,
Albuquerque, NM 97190
505-883-3070
Appellate Counsel for
Tamra Lamprell

I certify that I have caused
a copy of the foregoing to be
served on opposing counsel
of record via the Court’s E-file
and Serve system on March 13, 2019.
/s/ Thomas C, Montoya
Thomas C. Montoya

64a

APPENDIX L

IN THE COURT OF APPEALS
OF THE STATE OF NEW MEXICO
REX E. STUCKEY,
Petitioner-Appellee,
NO. ______________
(D-0117-DM201000151)

v.
TAMRA L. LAMPRELL,
Respondent-Appellant.

First Judicial District Court
Rio Arriba County
The Honorable Sylvia LaMar
PETITION FOR WRIT OF ERROR

CAREN I. FRIEDMAN
7 AVENIDA VISTA GRANDE #311
SANTA FE, NEW MEXICO 87508
(505) 466-6418
Counsel for Respondent-Appellant

65a
I. INTRODUCTION
This is a domestic relations case in which a district
judge entered a draconian order, implementing
advisory consultation recommendations immediately
upon their issuance and transferring primary physical
custody of a three-year-old child (DOB 2/24/10) away
from her Mother — with whom she has lived her entire
life — to Father — who has not yet been able “to spend
significant periods of time with his daughter” and who
is currently the subject of an ongoing criminal
investigation. [Interim Order; AC Report at 15].1
Mother is now allowed only one supervised visit per
week with her daughter. This transfer of custody
occurred the day after the advisory consultant handed
down his recommendations and within moments of the
report being handed to the parties at a hearing that
ostensibly had nothing to do with custody but was set
to address a contempt motion against Father. The
entire hearing lasted a matter of minutes and
obviously did not address objections to the
recommendations because none had yet been filed.
Perhaps the most troubling aspect of the immediate
adoption and implementation of the recommendations
without any notice and opportunity to be heard is that
the advisory consultant relied on numerous hearsay
statements from a report of an Archuleta County
Sheriff’s Department Detective who engaged in
unscrupulous behavior during the course of her
investigation. The district court’s ruling is having
profoundly detrimental effects on Child, who spends
1

The district court’s interim order, filed September 27, 2013,
is Attachment A; the advisory consultant’s report, filed
September 26, 2013, is Attachment B.

66a
her weekly supervised visits with her Mother asking
when she can go home.2
The district court’s wholesale and immediate
adoption of the recommendations permitting Child to
be taken from her Mother — who was described as “a
devoted parent” in the psychological evaluation upon
which the advisory consultant relied — is shocking to
the conscience. There is no provision in the Rules for
immediate implementation of an advisory consultant’s
recommendations. On the contrary, the Rules contain
procedural safeguards that are constitutional in
magnitude. See Buffington v. McGorty 2004-NMCA092, ¶ 30, 136 N.M. 226, 96 P.3d 787. The district
court’s order violates the Rules, and it violates
Mother’s constitutional rights.
As will be discussed, the interim order is not a final
appealable order, yet it meets the elements of the
collateral order doctrine, thus conferring appellate
jurisdiction on this Court. Mother asks the Court to
issue a writ of error pursuant to Rule 12-503, NMRA,
assign this case to the summary calendar, and propose
summary reversal of the district court’s patently
unlawful order. In the alternative, Mother asks the
Court to issue the writ and assign the case to the
general calendar for briefing on the merits and
consideration of the full record.
II. SUMMARY OF PROCEEDINGS
A. Nature of the Case and Course of
Proceedings
This is a high conflict case that has been heavily
litigated for several years. For purposes of this
2

Mother was able to locate appellate counsel only last week.

67a
petition, it will suffice to say that the case was
initiated by Father, who filed a petition to determine
parentage and custody in July 2010. In December of
that year, the parties were referred to Family Court
Services for mediation. Since that time, the parties
have gone through several priority consultation and
advisory consultation processes. Until the district
court’s interim order that is the subject of the instant
petition, Mother has always had primary physical
custody of Child, and Father has had very limited
amounts of visitation. There has been no adjudication
of paternity.
B. Facts Relevant to the Petition
The parties had a brief and volatile relationship and
had separated by the time that Mother found out that
she was pregnant with Child. They reunited briefly
and split up for good a few months after Child’s birth.
During an early priority consultation, Mother
expressed concerns that Father was abusing drugs
and alcohol, that he did not have stable housing, and
that he was incapable of meeting the developmental
needs of a baby. Beginning in May 2011, Father began
very limited supervised visitation.
After another priority consultation, in December
2012 Father began to have limited periods of
unsupervised visitation. Shortly after that, Mother
made a complaint to a Victim’s Advocate based on her
belief that Child had been sexually abused by Father.
An investigation was initiated by the Archuleta
County Sheriff’s Department, and Detective Tonya
Hamilton conducted a forensic interview of Child. As
will be discussed, Detective Hamilton had a glaring
conflict of interest in the investigation, thus tainting

68a
her conclusions, yet the advisory consultant relied on
her report.
Mother suspended Father’s contact with Child
based on a direction by Dr. Candace Kern. After more
litigation, Father began unsupervised periods of
responsibility two of every three Saturdays from 12:00
noon to 6:00 p.m. Child resided with Mother at all
times that she was not visiting with Father.
After unsupervised visitation with Father resumed,
Mother’s concerns about Child being sexually abused
by Father continued because Child disclosed two
additional incidents of abuse. Mother filed a petition
for an Order of Protection in July 2013. The parties
agreed that Child should participate in a forensic
interview at Solace Crisis Treatment Center. As a
result of Child’s disclosures about Father during the
interview, the New Mexico State Police filed a report.
That criminal investigation is ongoing.
C. Advisory
Consultation
Report
and
Recommendations
The advisory consultant’s concerns about Mother
are essentially two-fold: 1) that she has engaged in
“parental gatekeeping” that has impeded Child from
developing a relationship with Father; and 2) that the
psychologist who performed Mother’s psychological
evaluation gave her the diagnosis of “Rule out (301.9)
Personality Disorder NOS with Prominent Paranoid
Features.” [AC Report at 6; 9].
The advisory
consultant acknowledged that “[t]he [phrase] ‘rule out’
refers to a psychologist’s impression that the diagnosis
may require more clinical information to ascribe it
with certainty.” [AC Report at 9]. The advisory
consultant then proceeded to decide for himself that

69a
Mother actually does have a personality disorder. [AC
Report at 14]. This is highly improper, as the advisory
consultant is an employee of the court; he is not the
psychologist that was tasked with conducting Mother’s
psychological evaluation and did not perform any
psychological testing on Mother.
The advisory consultant acknowledged that Father
is also engaging in restrictive gatekeeping by
harboring views about Mother that would render him
unable to promote a relationship between her and
Child.
[AC Report at 7].
While the advisory
consultant relied on Father’s expressed concerns that
Mother has coached and alienated Child, there is no
evidence to support that allegation. [AC Report at 8].
In adopting the interim order, the district court failed
to address evidence demonstrating that Father has
engaged in coaching and alienating. A videotape of a
visit with Father was introduced into evidence,
showing that Father repeatedly told Child that her
Mother is “mean,” “bad,” and “wrong” and that “she’s
not being a good mommy” and that Child “should not
listen to mommy.” [Resp. Amended Motion with
Objections, at 5 (citing 3-hour compact disc admitted
into evidence at Sept. 27 2013 hearing)].3 If Father is
willing to coach and alienate Child when he knows
that he is being videotaped, it is not difficult to
surmise the extent to which he will do so when not
being videotaped. Remarkably, the hearing at issue
was set to address these issues in a pending motion for
contempt against Father, but rather than hearing that
3‘Respondent’s

Amended Motion with Objections to Advisory
Consultation Recommendations, filed on October 9, 2013, is
Attachment C.

70a
motion, the district court immediately implemented
the recommendations and asked Father to leave the
courthouse with Child.
Mother believes that Detective Hamilton received a
bribe from Father or his family, but she admitted that
she has no way of proving her belief. In the view of the
advisory consultant, “Mother’s allegations of bribery
in this context stretch the bounds of reason and appear
to demonstrate an unhealthy degree of suspicion
bordering on paranoia.” [AC Report at 11]. There is,
however, record evidence demonstrating that Mother’s
suspicions are well-founded.
A series of e-mail messages between Detective
Hamilton, Father, and Father’s trial counsel indicate
that at the very least Detective Hamilton has engaged
in unethical behavior and that her impartiality has
been compromised. Detective Hamilton has stated
that she “can’t stand” Mother, and she has admitted
that her goal is to build a case against Mother. [Resp.
Amended Motion with Objections, at 7–8]. Detective
Hamilton told Father that she “can no longer be
objective.” Id. at 7. She further told Father that she
“will do whatever [she] can to cast doubt in the Court’s
eyes” about Mother. Id. She also allowed Father’s trial
attorney to edit her letter to an employee of Family
Court Services. Id. at 8. These are just a few examples
of the outrageous and unscrupulous interactions that
led to the advisory consultant’s recommendations. See
generally id. at 7–8.
The advisory consultant believed that Mother is
suspicious and that she externalizes blame. [AC
Report at 10]. He also cited others’ complaints that
she is “highly demanding, difficult to work with and

71a
manipulative.” [AC Report at 10]. He cited evidence
that Mother is consumed with the litigation and that
it interferes with her ability to “spend time with
[Child] and provide enriching activities.” [AC Report
at 11]. The advisory consultant cited research that
indicates that “parents with personality disorders
(PD) are more than three times as likely to engage in
five or more problematic child-rearing behaviors, such
as high parental possessiveness, inconsistent
discipline,
low
parental
affection,
low
praise/encouragement, low supervision, and low time
spent with child.” [AC Report at 14]. Aside from the
fact that Mother has not been diagnosed with a
personality disorder, none of these risk factors begin
to approach a justification for removing Child from
Mother’s custody.
Perhaps more importantly, the case materials
before the advisory consultant document Mother’s
high level of parenting skill, debunking the notion that
her parenting style is characterized by a personality
disorder. The counselor with whom Mother completed
parenting classes, as well as the counselor who is
Child’s play therapist, reported that Mother freely
praised Child, was affectionate, and was consistent
with discipline. Mother’s parenting class was set for
16 weeks, but she completed it in approximately ten
sessions due to her high level of parenting skill. The
advisory consultant had access to these reports but
chose not to mention them. [AC Report at 1].
It is ironic that the advisory consultant focused on
Mother’s high level of intelligence and her logical and
analytical mind, as if these traits were negative. [AC
Report at 8–9]. It is also notable that Mother’s clinical
profile found that she is “relaxed,” “secure,”

72a
“comfortable with herself,” “independent,” and “selfconfident.” [AC Report at 8].
While Mother’s
psychological evaluation indicated that she was
defensive, Father’s psychological evaluation indicated
that he was so “extremely defensive” that it may have
clouded his test results. [AC Report at 7; 9]. It is
interesting, that the advisory consultant minimized
this trait in Father, finding that it was justified, while
finding that the same trait in Mother was a major
cause for concern. Id.
Mother does not profess to be without problems or
difficulties.
She is willingly participating in
counseling to address her issues. The challenges that
she has faced and her manner of responding to them
do not come close to approaching parental unfitness.
The district court made no concrete findings
concerning parental unfitness or potential harm to
Child. See Interim Order.
D. Disposition Below
At the beginning of the hearing, the judge stated
that it was a “status” hearing, and Mother’s trial
counsel reminded her that she had set the hearing to
address Mother’s motion for contempt. [CD 9/27/13 at
0:49 to 1:03].4 Mother and her trial counsel were
present with witnesses and were ready to go forward
with an evidentiary hearing on the issue of holding
Father in contempt for violation of a court order. The
judge then announced that the advisory consultant
4

The disc of the hearing made available to Mother’s counsel is
not an FTR disc. Undersigned listened to the hearing using
iTunes, and the transcript citations refer to time elapsed from the
beginning of the hearing, as opposed to time of day, which would
be the case with an FTR disc.

73a
had completed his recommendations and report
(which occurred the day before), and she asked a
sheriff’s deputy to come forward and give copies to
each party. Id. at 2:34 to 2:48.
The district court stated: “because of the nature of
the report and the concerns raised by [the advisory
consultant],
this
court
is
adopting
the
recommendations immediately.” Id. at 3:02 to 3:22.
The court stated that Father is to have “sole custody
of this Child effective immediately.” Id. at 3:23 to 3:30.
While court was in session, Child was in Family Court
Services. The judge ordered that “[t]he child is to be
taken from the courthouse by Father.” Id. at 3:30 to
3:35. Thus, a three-year-old who has lived her entire
life with Mother was not allowed to go home that day,
and she has not been home since.
The court stated that the advisory consultant spent
“untold hours” talking with “all of the professionals
involved” in the case as well as with his staff. Id. at
4:28 to 4:40. The judge continued: “it is the concern of
[the advisory consultant] and of this court that if such
a drastic step is not made, then the child can be
harmed.” Id. at 4:45 to 4:53. The court made no
findings regarding what harm would come to Child or
what would cause the harm.
Twelve minutes into the hearing, the judge asked
Father to leave and pick up Child. Id. at 12:11. She
informed Mother that she would “need to stay in the
courtroom” while Father got Child and left the
courthouse. Id. Mother’s trial counsel asked if Mother
could say good-bye to her daughter. Id. at 13:39. The
judge responded: “No, Family Court Services is
concerned about that interaction.” Id. at 13:41 to

74a
13:46. As for the original purpose for the hearing,
Mother’s trial counsel asked if the court was going to
hear the motion for contempt against Father. Id. at
12:20. The judge informed that “[w]e’re not going to
do that today.” Id. at 2:24.
III.

STATEMENT REGARDING COLLATERAL
ORDER

Subject to certain exceptions, this Court has no
jurisdiction to review an order or decision that is not
final. One of these exceptions is the collateral order
doctrine. See Carrillo v. Rostro, 114 N.M. 607, 845
P.2d 130 (1992). To fall within this exception, an order
of the district court must satisfy three conditions.
First, it must “‘conclusively determine the disputed
question.’” Id., 114 N.M. at 613, 845 P.2d at 136
(quoting Cohen v. Beneficial Indus. Loan Corp., 337
U.S. 541 (1949)). Second, the order must “‘resolve an
important issue completely separate from the merits
of the action.’” Id. Third, the order must “‘be
effectively unreviewable on appeal from a final
judgment.’” Id.; see also Rule 12-503(E)(2). The
interim order from which Mother seeks review is not a
final appealable order, yet it meets each of these
elements.
A. The District Court’s Order Conclusively
Determined the Disputed Question.
As to the first element of the collateral order
doctrine, the disputed question is whether the Rules of
Civil Procedure and the Due Process Clauses of both
the United States and New Mexico Constitutions
permit a district judge to implement the
recommendations of an advisory consultant
immediately, without notice to the parties, and

75a
without providing an opportunity to be heard. The
district court’s order conclusively determined that
question. In the course of 12 minutes5, without taking
any evidence or testimony about Child’s best interests,
and without addressing the pending contempt motion
against Father, the district court allowed the custody
arrangement to be turned on its head.
Under our Rules of Civil Procedure, where a hearing
officer hands down recommendations, “[i]f a party
file[s]
timely,
specific
objections
to
the
recommendations, the court shall conduct a hearing
appropriate and sufficient to resolve the objections.”
Rule 1-053.2(H)(1)(b), NMRA (emphasis added). The
Rules further provide that “[t]he court shall make an
independent determination of the objections.” Id. at 1053.2(H)(1)(c) (emphasis added). The Rule governing
domestic relation mediation act programs, such as
advisory consultations, likewise gives parties the
opportunity to object to recommendations. See Rule 1125(E), NMRA.
In Buffington v. McGorty, 2004-NMCA-092, ¶ 30,
136 N.M. 226, 96 P.3d 787, this Court held that a party
must be given an opportunity to submit objections to a
hearing officer’s report and recommendations. In the
Court’s view,[+] his is fundamental to the due process
5

According to the CD, the entire hearing lasted for 19
minutes; however, at the 12-minute mark in the hearing, the
judge dismissed Father to pick up Child and shortly after that,
there were approximately five minutes of silence, while the judge
required Mother to wait in the courtroom. Other than refusing
Mother’s request to say goodbye to her daughter, denying
Mother’s motion for a stay of enforcement, and allowing her
witnesses for the scheduled hearing to be released, nothing else
of consequence occurred after the first 12 minutes of the hearing.

76a
concept of having an opportunity to be heard by a
judicial officer.” ld. This Court expressly stated that
once a party files objections, the “district court must
then hold a hearing on the merits of the issues before
the court.” Id. at ¶ 31 (emphasis added). This Court
has indicated that the due process strictures
announced in Buffington control a district court’s
adoption of advisory consultation recommendations.
See Rodriguez v. Ortega, No. 28,947, 2009 WL 6677932
at *1–*2 (N.M. App. Apr. 24, 2009).
In an unpublished decision, this Court cited
Buffington for the proposition that a district court
“must demonstrate that it reviewed the objections and
arrived at a reasoned basis for its decision.” Calhoun
v. Snyder, No. 29,410, 2010 WL 3997935 (N.M. App.
Feb. 16, 2010). In the case at bar, the district court
made an end-run around the Rules by adopting the
advisory consultation recommendations months
before the hearing on objections will take place. The
court could not possibly have considered objections
and arrived at a reasoned basis for its decision. The
parties were presented with the advisory consultant’s
recommendations at the hearing literally seconds
before the judge announced that she was adopting
them.
Under Buffington, and under our Constitutions,
Mother has been denied liberty without due process of
law because she was given neither notice nor an
opportunity to be heard before her Child was taken
from her. See U.S. CONST. amend. XIV, § 1 (“nor shall
any State deprive any person of life, liberty, or
property, without due process of law”); N.M. CONST.
art. II, § 18 (“No person shall be deprived of life,
liberty or property without due process of law.”).

77a
Mother has a fundamental liberty interest … in the
care, custody, and management of [her] child.”
Santosky v. Kramer, 455 U.S. 745, 753 (1982); see also
State ex rel. CYFD v. Amanda M, 2006-NMCA-133,
¶ 22, 140 N.M. 578, 144 P.3d 137.
Mother has not only a procedural due process right
to have her case handled in accordance with the Rules,
but she also has a substantive due process right to
pursue her familial relationships. See Lawrence v.
Texas, 539 U.S. 558, 573–74 (2003) (noting that the
“substantive force of the liberty protected by the Due
Process Clause” includes “personal decisions relating
to … family relationships [and] child rearing”). It is
manifest that the rights that are protected by the Due
Process Clause may have nothing whatsoever to do
with procedure. See McDonald v. City of Chicago, 130
S. Ct. 3020, 3090 (2010) (Stevens, J., dissenting) (“The
first, and most basic, principle established by our cases
is that the rights protected by the Due Process Clause
are not merely procedural in nature.”). There reaches
a certain level of oppressiveness or irrationality that
our Constitutions simply will not tolerate no matter
how much process is given. See id. (“no amount of
process can legitimize some deprivations”). In the
instant case, the district court’s actions crossed that
threshold.
It is also worth considering that Mother is not the
only one whose fundamental liberty interest has been
violated. A child who is the subject of a custody or
visitation battle is a “person” for purposes of the
Fourteenth Amendment. See In the Matter of the
Guardianship of Victoria R., 2009-NMCA-007, ¶ 11,
145 N.M. 500, 201 P.3d 169 (2008) (Alarid, J.,
authoring single-judge lead opinion). Child has a

78a
substantive due process right to maintain her familial
bond with her Mother, and she has a procedural due
process right not to be deprived of that relationship
arbitrarily as happened in the instant case.
The “core judicial function” was not independently
performed by a judge in the instant case but instead
was essentially performed by an employee of Family
Court Services. Cf. Buffington, 2004-NMCA-092, at ¶
30, 136 N.M. 226, 96 P.3d 787 (procedure of notice and
opportunity to have objections heard before court
adopts recommendations assures parties that issues
are decided by one who is vested with judicial power).
One of the most basic precepts of our judicial system
was sidestepped here. This should be of particular
concern to the Court because the advisory consultant’s
report is extremely lopsided in its denigration of
Mother without giving credence to the damaging and
potentially abusive actions of Father.
It is noteworthy that the district court did not
invoke the provisions of the Abuse and Neglect Act in
removing Child from Mother’s custody. See NMSA
1978,§ 32A-4-1 et seq. Indeed, the district court made
no findings that Mother had abused or neglected child
within the meaning of the Act. See id. at § 32A-4-2.
The court stated only that it is concerned “that the
child can be harmed.” [CD 9/27/13 at 4:45 to 4:53]. The
district court’s interim order cites Mother’s
“diagnosis,” but her psychological evaluation stated
that a personality disorder is a diagnosis that needs to
be ruled out. [AC Report at 9] . Even if Mother
actually had been diagnosed with a personality
disorder, there is no provision in New Mexico’s custody
statutes that permits a district court to divest a parent
of child custody summarily.

79a
The law in New Mexico is that a child custody
determination made by a court of this state binds all
persons who have submitted to the court’s jurisdiction
“and who have been given an opportunity to be heard.”
NMSA 1978, § 40-10A-106. Even in very high conflict
cases or in cases dealing with families in crisis, a
district judge is still bound by the dictates of the Due
Process Clauses. Furthermore, it is the policy of New
Mexico to support and promote a family’s ability to
raise its children, to strengthen families in crisis, and
to keep them intact. NMSA 1978 § 40-15-3. The
district court’s order conclusively determined the
disputed question, and it is insupportable.
B. ‘The District Court’s Order Resolved an
Important Issue Completely Separate
From the Merits.
As to the second element of the collateral order
doctrine, the interim order resolves an important issue
completely separate from the merits of the action. The
merits of this case will determine custody and
timesharing. The legal issue whether a district court
has the authority to implement advisory consultation
recommendations immediately without providing a
parent notice and an opportunity to be heard is
completely separate from the merits, i.e. the custody
arrangement that will ultimately be adopted.
C. The District Court’s Order is Effectively
Unreviewable on Appeal from a Final
Judgment.
As to the third element of the collateral order
doctrine, the order is effectively unreviewable on
appeal from a final judgment. On some unspecified
date in the future the district court will decide the
issues of custody and timesharing, but there is no

80a
telling how much water will have passed under the
bridge by then, how old Child may be at that point, or
how much emotional harm will have been done by
uprooting her from the secure life that she has known
with Mother for her entire three-year life.
It should also be noted that as to the third element
of the doctrine, our Rules of Appellate Procedure state
that the order must be effectively unreviewable on
appeal from a final judgment “because the remedy by
way of an appeal would be inadequate.” Rule 12-503
(E)(2)(c), NMRA. Precisely because Child’s life has
been so suddenly and so drastically changed without
affording Mother notice and an opportunity to be
heard and without any evidence or findings that giving
Father sole custody under the circumstances of this
case would be in Child’s best interests, Mother’s only
adequate remedy is immediately seeking this Court’s
review under the collateral order doctrine by way of a
writ of error.
IV.

REQUEST CONCERNING
ENFORCEMENT

STAY

OF

In open court, Mother moved for a stay of
enforcement pending appeal, but the district court
denied the motion. [CD 9/27/13 at 13:47 to 13:51]. If
the Court elects not to grant this petition to address
the issue on the merits, Mother nevertheless asks the
Court to exercise jurisdiction for the purpose of
allowing her to seek review of the district court’s
arbitrary and capricious denial of a stay of
enforcement to hold the status quo for Child until such
time as objections may be heard. The hearing on
objections is currently set for late December 2013, but
that hearing will likely have to be continued because

81a
of ongoing litigation concerning Mother’s efforts to
discover the raw test scores and psychological
evaluation upon which the advisory consultant based
his recommendations, and which are currently being
withheld from her. At present, then, there is no telling
when the objections might be heard, and Child is thus
caught in limbo, unable to go home.
In denying Mother’s request for a stay, the district
court failed to address or consider any of the factors
relevant to deciding whether to stay an order affecting
child custody. See Alpers v. Alpers, 111 N.M. 467, 470,
806 P.2d 1057, 1060 (Ct. App. 1990). Pursuant to Rule
12-503(J), NMRA, a party seeking a stay of the order
that is the subject of a writ of error, or a stay of the
proceedings as a whole, must wait until the writ
issues. Thus, if the Court is inclined to deny this
petition on the merits, Mother asks that the Court
nevertheless grant it to address the district court’s
abuse of discretion in denying a stay.
V.

PRAYER FOR RELIEF

Mother respectfully asks the Court to grant this
petition and issue a writ of error to the district court.
Due to the patently unlawful nature of the district
court’s interim order, this Court should assign the case
to the summary calendar and propose summary
reversal. In the alternative, Mother asks the Court to
assign the case to the general calendar for briefing and
consideration of the full record. If the Court is inclined
to deny this petition, Mother nevertheless asks the
Court to accept jurisdiction for the sole purpose of
allowing her to seek review of the district court’s
denial of a stay of enforcement.

82a
Respectfully submitted,
s/Caren I. Friedman ____________
Caren I. Friedman
7 Avenida Vista Grande #311
Santa Fe, New Mexico 87508
(505) 466-6418
Counsel for Respondent-Appellant

CERTIFICATE OF SERVICE
I hereby certify that on this 28th day of October 2013,
I caused to be delivered a true and correct copy of the
foregoing on the following by first class U.S. mail,
postage prepaid:
Gary W. Boyle, Esq.
15 Spirit Court
Santa Fe, New Mexico 87506
The Honorable Sylvia LaMar
First Judicial District Court
Post Office Box 2268
Santa Fe, New Mexico 87504-2268
s/Caren I. Friedman

83a

APPENDIX M

[FILED UNDER SEAL]

105a

APPENDIX N

[FILED UNDER SEAL]

112a

APPENDIX O

[FILED UNDER SEAL]

124a

APPENDIX P

[FILED UNDER SEAL]

